TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Attestation Review of the Internal Revenue
                      Service’s Fiscal Year 2007 Annual
                    Accounting of Drug Control Funds and
                             Related Performance



                                        January 31, 2008

                              Reference Number: 2008-10-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              January 31, 2008


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Attestation Review of the Internal Revenue
                              Service’s Fiscal Year 2007 Annual Accounting of Drug Control Funds
                              and Related Performance (Audit # 200710038)

 This report presents the results of our attestation review of the Internal Revenue Service’s (IRS)
 Fiscal Year (FY) 2007 Office of National Drug Control Policy (ONDCP)1 Detailed Accounting
 Submission and Performance Summary Report (the Report). The purpose of this review was to
 express a conclusion about the reliability of each assertion made in the Report.

 Impact on the Taxpayer
 The IRS reported that it expended $58.4 million on ONDCP-related activities and completed
 654 ONDCP-related investigations in FY 2007. Overall, the methodology used to calculate the
 IRS’ FY 2007 Report was clearly explained and adequately documented. Complete and reliable
 financial and performance information is critical to the IRS’ ability to accurately report on the
 results of its operations to both internal and external stakeholders, including taxpayers.

 Synopsis
 Overall, the methodology used to calculate the IRS’ FY 2007 Report was clearly explained and
 adequately documented. However, in our opinion, the performance measure reported by the IRS
 could be improved to better represent the IRS’ contribution to the National Drug Control


 1
  The ONDCP was established in 1988 to set priorities, implement a national strategy, and certify Federal
 Government drug control budgets by the Anti-Drug Abuse Act of 1988, P.L. 105-277 (Division C-Title VII),
 Section 707(d).
                      Attestation Review of the Internal Revenue Service’s
                 Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                      Related Performance


Strategy. Specifically, by reporting only the number of ONDCP-related investigations
completed, the IRS is providing very little information on the effectiveness of its efforts.
In addition, our testing of the IRS ONDCP performance information for reasonableness
identified that 47 (7 percent) of the 654 investigations reported as completed in FY 2007 were
both initiated and completed on the same day and resulted in referral for prosecution, based on
the supporting documentation provided. The IRS informed us that the 47 investigations were all
related to other investigations and were worked as part of the related investigations. The IRS
concluded that the 47 cases were not tracked as unique investigations until approximately the
time the cases were forwarded for prosecution. While the IRS’ explanation for the reporting of
these types of investigations appears reasonable, we are unable to adequately verify it without a
detailed review of at least a sample of investigation case files, which is significantly beyond the
scope of this review.
Based on our review, with the exception of the matters discussed above, nothing came to our
attention to indicate that the assertions are not presented, in all material respects, in accordance
with ONDCP-established criteria.

Recommendation
We recommended the Chief Financial Officer, in coordination with the Chief, Criminal
Investigation Division, expand the performance information used to report the IRS’ contribution
to the National Drug Control Strategy to include additional measures that specifically address
program effectiveness.

Response
The IRS agreed to consider expanding the performance information it reports. Specifically, the
IRS will evaluate potential performance measures and, in particular, will look at the measures
used by the other agencies that support the National Drug Control Strategy.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                       2
                           Attestation Review of the Internal Revenue Service’s
                      Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                           Related Performance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Methodology Used to Calculate the Internal Revenue
          Service’s Fiscal Year 2007 Report Was Clearly Explained
          and Adequately Documented........................................................................Page 2
                    Recommendation 1:..........................................................Page 3


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 4
          Appendix II – Major Contributors to This Report ........................................Page 6
          Appendix III – Report Distribution List .......................................................Page 7
          Appendix IV – Internal Revenue Service Fiscal Year 2007
          Detailed Accounting Submission and Performance Summary Report .........Page 8
          Appendix V – Management’s Response to the Draft Report .......................Page 14
             Attestation Review of the Internal Revenue Service’s
        Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                             Related Performance




                       Abbreviations

FY               Fiscal Year
IRS              Internal Revenue Service
ONDCP            Office of National Drug Control Policy
                        Attestation Review of the Internal Revenue Service’s
                   Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                        Related Performance




                                           Background

The Anti-Drug Abuse Act of 19881 establishes as a
                                                                        National Drug Control
policy goal the creation of a drug-free America. A                      Program agencies are
key provision of the Act is the establishment of the                  required to submit to the
Office of National Drug Control Policy (ONDCP) to                    Director of the ONDCP, not
set priorities, implement a national strategy, and                  later than February 1 of each
certify Federal Government drug control budgets.                     year, a detailed accounting
                                                                        of all funds expended.
The Internal Revenue Service (IRS) Narcotics
Program supports the National Drug Control
Strategy with continued support of joint agency task forces (e.g., the Organized Crime and Drug
Enforcement Task Force and High Intensity Drug Trafficking Area Task Force) through the use
of asset forfeiture legislation, international training programs, and assistance programs.
This review was conducted as required by the National Drug Enforcement Policy (21 U.S.C.
Section 1704(d)) and the ONDCP Circular Annual Accounting of Drug Control Funds, dated
May 1, 2007. The National Drug Control Program agencies2 are required to submit to the
Director of the ONDCP, not later than February 1 of each year, a detailed accounting of all funds
expended (the ONDCP Circular requires amounts obligated) during the previous fiscal year.
Agencies also need to identify and document performance measure(s) that justify the results
associated with these expenditures. Further, the Circular requires that each report be provided to
the agency’s Inspector General for the purpose of expressing a conclusion about the reliability of
each assertion made in the report prior to its submission. Beginning in Fiscal Year (FY) 2006,
ONDCP funding became a part of the IRS budget. In prior years, IRS-related ONDCP funds
expended were reimbursed by the Department of Justice.
This review was performed at the IRS Headquarters offices of the Chief Financial Officer and
Chief, Criminal Investigation Division, in Washington, D.C., during the period October through
December 2007. Our review was conducted in accordance with attestation standards established
by the American Institute of Certified Public Accountants. An attestation review is substantially
less in scope than an examination, the objective of which is the expression of an opinion on the
Report. Accordingly, we do not express such an opinion.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.



1
 P.L. 105-277 (Division C-Title VII), Section 707(d).
2
 A National Drug Control Program agency is defined as any agency that is responsible for implementing any aspect
of the National Drug Control Strategy.
                                                                                                        Page 1
                     Attestation Review of the Internal Revenue Service’s
                Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                     Related Performance




                                Results of Review

The Methodology Used to Calculate the Internal Revenue Service’s
Fiscal Year 2007 Report Was Clearly Explained and Adequately
Documented
We reviewed the IRS’ FY 2007 ONDCP Detailed Accounting Submission and Performance
Summary Report (the Report) (see Appendix IV). The Report was prepared pursuant to
21 U.S.C. Section 1704(d) and the ONDCP Circular Annual Accounting of Drug Control Funds.
It is the responsibility of the IRS.
The Report assertions, as required by Section 6.b. of the ONDCP Circular, include statements
that the methodology used is reasonable and accurate, including explanations and documentation
of estimation assumptions used; the methodology disclosed was the actual methodology used;
and the data presented are associated with obligations against a financial plan that reflects
changes, if made. The assertions, as required by Section 7.b. of the ONDCP Circular, include
statements that the performance reporting system is appropriate and applied, explanations for not
meeting any performance targets are reasonable, and the methodology used to establish
performance targets is reasonable and correctly applied. The ONDCP-established criteria
include well-documented sources of data, documented and explained calculations, and a
complete and fair presentation of data from financial systems. The IRS reported that it expended
$58.4 million on ONDCP-related activities and completed 654 ONDCP-related investigations in
FY 2007.
Overall, the methodology used to calculate the IRS’ FY 2007 Report was clearly explained and
adequately documented. However, in our opinion, the performance measure reported by the IRS
could be improved to better represent the IRS’ contribution to the National Drug Control
Strategy. Specifically, by reporting only the number of ONDCP-related investigations
completed, the IRS is providing very little information on the effectiveness of its efforts.
Measures that would provide a better indicator of the effectiveness of the IRS’ ONDCP-related
efforts include the number of prosecution referrals, the number of convictions, and the
conviction rate. Complete and reliable financial and performance information is critical to the
IRS’ ability to accurately report on the results of its operations to both internal and external
stakeholders, including taxpayers.
In addition, our testing of IRS ONDCP performance information for reasonableness identified
that 47 (7 percent) of the 654 investigations reported as completed in FY 2007 were both
initiated and completed on the same day and resulted in referral for prosecution, based on the
supporting documentation provided. The IRS informed us that the 47 investigations were all

                                                                                          Page 2
                      Attestation Review of the Internal Revenue Service’s
                 Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                      Related Performance



related to other investigations and were worked as part of the related investigations. It concluded
that the 47 cases were not tracked as unique investigations until approximately the time the cases
were forwarded for prosecution. While the IRS’ explanation for the reporting of these types of
investigations appears reasonable, we are unable to adequately verify it without a detailed review
of at least a sample of investigation case files, which is significantly beyond the scope of this
review.
Based on our review, with the exception of the matters discussed above, nothing came to our
attention to indicate that the assertions are not presented, in all material respects, in accordance
with ONDCP-established criteria.

Recommendation
Recommendation 1: The Chief Financial Officer, in coordination with the Chief, Criminal
Investigation Division, should expand the performance information used to report the IRS’
contribution to the National Drug Control Strategy to include additional measures that
specifically address program effectiveness.
       Management’s Response: The IRS agreed to consider expanding the performance
       information it reports. Specifically, the IRS will evaluate potential performance
       measures and, in particular, will look at the measures used by the other agencies that
       support the National Drug Control Strategy.
                                              *****
While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the United States Department of the Treasury, the ONDCP, and
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.




                                                                                               Page 3
                            Attestation Review of the Internal Revenue Service’s
                       Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                            Related Performance



                                                                                     Appendix I

           Detailed Objective, Scope, and Methodology

Our overall objective was to perform an attestation review of the IRS’ FY 2007 ONDCP
Detailed Accounting Submission and Performance Summary Report (the Report),1 for the
purpose of expressing a conclusion about the reliability of each assertion made in the Report. To
accomplish our objective, we:
I.        Obtained an understanding of the process used to prepare the FY 2007 Report.
          A. Discussed the process to record and report ONDCP expenditures and performance
             information with responsible IRS personnel.
          B. Obtained documents that show the methodology used, such as written procedures,
             supporting worksheets, and recording modifications.
II.       Evaluated the reasonableness of the drug methodology process.
          A. Reviewed data supporting the Detailed Accounting Submission segment of the Report
             to establish the relationship to the amounts being reported.
          B. Reviewed the estimation methods used for consistency with reported amounts.
III.      Performed sufficient verifications of reported obligations to support our conclusion on
          the reliability of the assertions.
          A. Verified whether the Detailed Accounting Submission segment of the Report
             included all elements specified in Section 6 of the ONDCP Circular Annual
             Accounting of Drug Control Funds.
          B. Verified the mathematical accuracy of the obligations presented in the Table of the
             FY 2007 Drug Control Obligations.
          C. Traced the information contained in the Table of the FY 2007 Drug Control
             Obligations to the supporting documentation.
IV.       Evaluated the reasonableness of the methodology used to report performance information
          for National Drug Control Program Agency activities.
          A. Reviewed data supporting the Performance Summary segment of the Report to
             establish its relationship to the National Drug Control Program Agency activities
             being reported.

1
    See Appendix IV.
                                                                                             Page 4
                   Attestation Review of the Internal Revenue Service’s
              Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                   Related Performance



     B. Reviewed the estimation methods for consistency with reported performance
        information.
V.   Performed sufficient verifications of reported performance information to support our
     conclusion of the reliability of the assertions.
     A. Verified whether the Performance Summary segment of the Report includes all
        elements specified in Section 7 of the ONDCP Circular Annual Accounting of Drug
        Control Funds.
     B. Verified the mathematical accuracy of the performance information presented.
     C. Traced the performance information presented to the supporting documentation.
     D. Reviewed the supporting documentation for reasonableness.




                                                                                       Page 5
                    Attestation Review of the Internal Revenue Service’s
               Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                    Related Performance



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Alicia Mrozowski, Director
Anthony J. Choma, Audit Manager
Mildred Rita Woody, Lead Auditor
Richard Louden, Senior Auditor
Angela Garner, Auditor
Rashme Sawhney, Auditor




                                                                                    Page 6
                    Attestation Review of the Internal Revenue Service’s
               Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                                    Related Performance



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation Division SE:CI
Deputy Chief, Criminal Investigation Division SE:CI
Deputy Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation Division SE:CI
       Chief Financial Officer OS:CFO




                                                                        Page 7
           Attestation Review of the Internal Revenue Service’s
      Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                           Related Performance



                                                      Appendix IV

   Internal Revenue Service Fiscal Year 2007
Detailed Accounting Submission and Performance
                Summary Report




                                                              Page 8
     Attestation Review of the Internal Revenue Service’s
Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                     Related Performance




                                                        Page 9
     Attestation Review of the Internal Revenue Service’s
Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                     Related Performance




                                                       Page 10
     Attestation Review of the Internal Revenue Service’s
Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                     Related Performance




                                                       Page 11
     Attestation Review of the Internal Revenue Service’s
Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                     Related Performance




                                                       Page 12
     Attestation Review of the Internal Revenue Service’s
Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                     Related Performance




                                                       Page 13
         Attestation Review of the Internal Revenue Service’s
    Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                         Related Performance



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 14
     Attestation Review of the Internal Revenue Service’s
Fiscal Year 2007 Annual Accounting of Drug Control Funds and
                     Related Performance




                                                       Page 15
